                                SOCIAL SECURITY


MEMORANDUM

Date: September 13, 2004                                                           Refer To:

To:   Beatrice M. Disman
      Regional Commissioner
        for New York

From: Assistant Inspector General
        for Audit

Subject: New York State Disability Determination Program Indirect Costs (A-02-04-24017)



      The attached final report presents the results of our audit. Our objective was to
      determine whether indirect costs claimed by the New York State Office of Temporary
      and Disability Assistance for Federal Fiscal Years 2000 through 2002 were allowable
      and properly allocated.

      If you wish to discuss the final report, please call me at (410) 965-9700.




                                                     S
                                                     Steven L. Schaeffer

       Attachment

      cc:
      Lenore Carlson
      Jeffrey Hild
      Candace Skurnik
      Robert Doar, Commissioner, New York State Office of Temporary
       and Disability Assistance
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


          NEW YORK STATE
    DISABILITY DETERMINATION
             PROGRAM
          INDIRECT COSTS

   September 2004   A-02-04-24017




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE
Our objective was to determine whether indirect costs claimed by the New York State
Office of Temporary and Disability Assistance (OTDA) for Federal Fiscal Years (FY)
2000 through 2002 were allowable and properly allocated.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by disability
determination services (DDS) in each State in accordance with Federal regulations.
Each DDS is responsible for determining claimants’ disabilities and ensuring that
adequate evidence is available to support its determinations. SSA reimburses the DDS
for 100 percent of allowable expenditures.

In New York State, there are five DDS offices overseen by the Disability Determination
Division. Its parent agency is the OTDA, which was formerly part of the Department of
Social Services. The Department of Social Services was reorganized in January 1998
into three components: OTDA; the Office of Children and Family Services (OCFS); and
the Department of Health.

The OCFS is responsible for preparing the quarterly Central Office Cost Allocation
Claims (COCACs). The COCACs provide detail calculations of indirect costs based on a
Cost Allocation Plan approved by the Department of Health and Human Services,
Division of Cost Allocation. The COCACs are used to prepare costs claimed by the
OTDA on the State Agency Report of Obligations for SSA Disability Programs (Form
SSA-4513). Indirect costs on the Form SSA-4513 are primarily comprised of costs
incurred by OTDA for administering the Disability Determination Program.

RESULTS OF REVIEW
We found that OTDA claimed $3,977,860 of unallowable and improperly allocated
indirect costs. These costs included improperly classified expenses and credits,
overcharges for incorrect adjustments and costs based on incorrect computations of
allocation rates. We also found $1,050,604 of duplicate personnel costs that resulted in
overcharges to claimed direct administrative costs.

CONCLUSION AND RECOMMENDATIONS
We recommend that SSA instruct OTDA to refund $3,977,860 in unallowable indirect
costs and deobligate the portion of $212,381 in obligations reported but not supported
by valid documentation. Furthermore, we recommend that SSA instruct OTDA to



NYS Disability Determination Program Indirect Costs (A-02-04-24017)                   i
establish new and follow existing procedures to ensure transactions are accounted for
properly, classify expenses to appropriate overhead categories and prepare the
quarterly Central Office Cost Allocation Claims using the correct cost pools and
allocation statistics appropriate for the accumulator codes and period claimed. We also
recommend that SSA instruct OTDA to refund $1,050,604 of duplicate personnel costs
claimed as direct costs and correct the system for charging personnel costs.

SSA COMMENTS

SSA agreed with all of our recommendations, but stated in response to our sixth
recommendation that it would be difficult to determine whether documentation provided
by OTDA for unsupported obligations on Form SSA - 4513 was new or had previously
been submitted. Consequently, SSA suggested that the entire $212,381 of
unsupported obligations be deobligated.

OTDA COMMENTS
OTDA generally agreed with our findings, but disagreed with the amounts of
overcharges we calculated. While agreeing that SSA is due a refund, it questioned
whether the $3,977,860 overcharge and the $212,381 of unsupported obligations were
accurate given subsequent amended COCAC claims and/or adjustments made to the
4513 report, which may change the amounts we calculated. OTDA also questioned the
$1,050,604 of duplicate personnel costs we identified. It stated that the overcharge and
corresponding refund should be reduced to $290,404 to take into account miscoded
payroll charges that were inadvertently omitted from its original claims.

OIG RESPONSE

We believe that the overcharge of $3,977,860 should be refunded to SSA. The
calculations used to arrive at that figure paralleled the COCAC process. Since the
COCAC process involves detailed calculations of indirect costs based on the approved
Cost Allocation Plan, we believe the overcharge figure to be accurate. We concur with
OTDA in that it should deobligate $44,689 of unsupported obligations for FY 2002,
instead of the recommended $212,381, as long as it provides SSA with documentation
to support the difference.

We do not believe that the $1,050,604 of duplicate personnel costs claimed as direct
costs should be reduced to $290,404. The miscoded payroll charges in question were
related to indirect costs and were taken into consideration when we calculated indirect
cost overcharges. The $1,050,604 overcharge we identified was claimed as direct
costs. Accordingly, this figure should not be reduced and the $1,050,604 of duplicate
personnel costs should be refunded to SSA.




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                   ii
                                                                        Table of Contents
                                                                                                                  Page

INTRODUCTION.......................................................................................................1

RESULTS OF REVIEW ............................................................................................3

ADMINISTRATIVE SUPPORT OVERHEAD.............................................................3
  • Quick Copy Center Accounting.......................................................................3
  • Transaction Classification...............................................................................4

PROGRAM SUPPORT OVERHEAD ........................................................................5
  • Allocation ........................................................................................................5
  • Training ..........................................................................................................6
  • Transaction Classification...............................................................................6

A-87 COSTS .............................................................................................................6
   • Overhead Categories .....................................................................................7
   • Cost Pool ........................................................................................................8

UPSTATE COMPUTER OPERATIONS....................................................................8
  • Allocation Rates..............................................................................................8
  • Transaction Adjustments ................................................................................9

INFORMATION TECHNOLOGY MANAGEMENT OVERHEAD .............................10

TEN EYCK RENT....................................................................................................11

DISABILITY DETERMINATION OVERHEAD .........................................................11

FORM SSA-4513 ....................................................................................................11

OTHER MATTERS..................................................................................................12

CONCLUSIONS AND RECOMMENDATIONS.......................................................13

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Summary of Monetary Results
APPENDIX D – Agency Comments
APPENDIX E – Office of Temporary and Disability Assistance Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments

NYS Disability Determination Program Indirect Costs (A-02-04-24017)
                                                                  Introduction
OBJECTIVE
Our objective was to determine whether indirect costs claimed by the New York State
Office of Temporary and Disability Assistance (OTDA) for Federal Fiscal Years
(FY) 2000 through 2002 were allowable and properly allocated.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act). The DI program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. In 1972, Congress enacted
the Supplemental Security Income (SSI) program under Title XVI of the Act. The SSI
program provides benefits to financially needy individuals who are aged, blind, or
disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by disability determination
services (DDS) in each State in accordance with Federal regulations.1 In carrying out
its obligation, each DDS is responsible for determining claimants’ disabilities and
ensuring that adequate evidence is available to support its determinations. To assist in
making proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. At the end of each quarter of the fiscal year, each DDS submits a
Form SSA-4513, State Agency Report of Obligations for SSA Disability Programs, to
account for program disbursements and unliquidated obligations.

In New York State, there are five DDS offices overseen by the Disability Determination
Division. Its parent agency is the OTDA, which was formerly part of the Department of
Social Services. The Department of Social Services was reorganized in January 1998
into three components: OTDA; the Office of Children and Family Services (OCFS); and
the Department of Health.

The OCFS is responsible for preparing the quarterly Central Office Cost Allocation
Claims (COCACs). The COCACs provide detail calculations of indirect costs based on
a Cost Allocation Plan (CAP) approved by the Department of Health and Human
Services, Division of Cost Allocation. The COCACs are used to prepare costs claimed
by the OTDA on the State Agency Report of Obligations for SSA Disability Programs

1
    20 C.F.R. pt. 404, subpt. Q (2004) and pt. 416, subpt. J.


NYS Disability Determination Program Indirect Costs (A-02-04-24017)                      1
(Form SSA-4513). Indirect costs on the Form SSA-4513 are primarily comprised of
costs incurred by OTDA for administering the Disability Determination Program (DDP).
However, training costs that are the responsibility of OCFS and allocated to the DDP
are also included in the Form SSA-4513. For FYs 2000 through 2002, OTDA reported
indirect cost obligations of $33,882,775 on the Form SSA-4513.

Overall, the OTDA is organized into program and support areas. The program areas
are responsible for administering specific programs within OTDA, such as Disability
Determinations. The support areas include administrative services that support the
program areas with functions, such as data processing, accounting, budgeting,
personnel, etc. The costs of the support areas are grouped into cost pools, or
accumulator codes, in order to be allocated back to the program accounts they support.
A specific cost allocation method has been developed, which establishes how the costs
will be allocated for each accumulator code. The accumulator codes used by OTDA for
the identification of indirect costs to the DDP include:

      •   Administrative Support Overhead                  •   Telecommunications (063)
          (Accumulator Code 020)
      •   Program Support Overhead (040)                   • Ten Eyck Rent (REN)
      •   A-87 Costs2                                      • Training (006)
      •   Upstate Computer Operations                      • Disability Determinations
          (U60)                                              Overhead (018)
      •   Information Technology                           • Human Service Enterprise
          Management Overhead (060)                          Network (FLD)




2
    This represents an account, as there is no accumulator code.


NYS Disability Determination Program Indirect Costs (A-02-04-24017)                       2
                                                    Results of Review
We found the OTDA claimed $3,977,860 of unallowable and improperly allocated
indirect costs from October 1999 through September 2002. These costs included
improperly classified expenses and credits, overcharges for incorrect adjustments and
costs based on incorrect computations of allocation rates. We also found $1,050,604 of
duplicate personnel costs that resulted in overcharges to claimed direct administrative
costs. In this report, the unallowable and improperly allocated costs are discussed for
each accumulator code in which they were identified.

ADMINISTRATIVE SUPPORT OVERHEAD

We Identified $4,314,243     For October 1999 through September 2002, we found that
of Unallowable Costs         OTDA claimed $4,314,243 of unallowable costs for the
Claimed for                  Administrative Support Overhead. The unallowable costs
Administrative Support       were related to incorrect accounting for the operation of the
Overhead                     Quick Copy Center (QCC) and transactions that should not
                             have been classified as Administrative Support Overhead.

In addition, unallowable and improperly allocated costs in other accumulator codes had
an effect on the claimed Administrative Support Overhead costs. These include A-87
costs, Upstate Computer Operations, Information Technology Management Overhead
and Ten Eyck Rent. They are discussed in detail in the following findings. The net
effect of all of these findings resulted in OTDA claiming $4,314,243 more for
Administrative Support Overhead for reimbursement from SSA than was allowable.

The accumulator code for Administrative Support Overhead is comprised of entities
whose staffs are engaged in activities that support the staff and administrative
operations for the entire OTDA, such as payroll, accounting, personnel, etc. The
allocation methodology is based on total OTDA staff count, less the staff count for
Administrative Support Overhead. The allocation rates to the DDP ranged from
51 to 57 percent during our audit period.

Quick Copy Center Accounting

We found that expenses and revenues identified with the operation of the QCC were not
assigned to the correct accumulator code resulting in incorrect charges to the DDP.
The QCC is an internal service fund established to provide professional printing and
copying services for the entire OTDA. As an internal service fund, it is designed to be
self supporting. That is, all operating expenses are to be offset by revenues collected
from the users of the service. Both expenses and revenues are supposed to be
classified as accumulator code 000.




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                          3
QCC expenditures were not correctly charged to accumulator code 000. We identified
QCC expenses that were charged to the Administrative Support Overhead cost pool,
while QCC revenues were generally assigned to the Program Support Overhead cost
pool. Since we did not review 100 percent of QCC transactions, due to the large
volume and variety of transactions comprising the cost pool, we did not determine the
total number of QCC expenses that were incorrectly charged to Administrative Support
Overhead. Though, based on our review of the accounting for QCC revenues, it
appears that most of the revenues were credited to Program Support Overhead based
on manual adjustments in the transaction register.

The inconsistent treatment of expenses and related revenue is contrary to the Office of
Management and Budget (OMB) Circular A-873, which requires a cost to be net of all
applicable credits to be allowable. The inconsistent treatment of expenses and related
revenues is particularly inequitable to the DDP due to the vastly different allocation rates
to the DDP between Administrative Support Overhead (over 50 percent of it is charged
to the DDP) and Program Support Overhead (approximately 5 percent).

To neutralize the incorrect and inconsistent treatment of expense and revenue activities
of the QCC during our audit period, the revenue credited to Program Support Overhead
should be moved to Administrative Support Overhead. This would result in offsetting
QCC operating expenses with revenues.

Transaction Classification

Our review of the Administrative Support Overhead cost pools disclosed transactions
that should not have been classified as Administrative Support Overhead, since they
should have either been directly charged to non–Disability Determination programs or to
the Program Support Overhead cost pool. As such, the Administrative Support
Overhead cost pool was overstated, which resulted in overcharges to the DDP.

Expenses for computer equipment, office furniture and moving costs that were included
in the Administrative Support Overhead cost pool should have been directly charged to
specific programs, since the expenses were for items that directly benefited those
programs. We also found that the accounting for the bulk purchases of train tickets was
improper. The OTDA purchased train tickets in bulk and included the expense in the
Administrative Support Overhead cost pool. As the tickets were used, the travelers
appropriate accumulator code should have been charged and the Administrative
Support Overhead cost pool should have received a corresponding credit. This did not
occur, so the Administrative Support Overhead cost pool was charged for all tickets
purchased and received no credits as the tickets were used.




3
    OMB Circular A-87, Attachment A, section C.1. i.


NYS Disability Determination Program Indirect Costs (A-02-04-24017)                       4
PROGRAM SUPPORT OVERHEAD

OTDA Did Not Claim            For October 1999 through September 2002, we found that
$334,505 for Program          OTDA did not claim $334,505 of allowable costs for
Support Overhead that         Program Support Overhead. This amount is a net total of
was Allowable                 some under claimed costs and some overcharges. Most of
                              the under claimed costs were related to an incorrect
allocation of costs for two quarters of our audit period and the incorrect posting of QCC
revenues to Program Support Overhead cost pool (see the previous finding on
Administrative Support Overhead for details). The overcharges were due to the
application of incorrect allocation rates and transactions that were improperly classified
as Program Support Overhead costs. Additionally, other unallowable and improperly
allocated costs in other accumulator codes had an effect on Program Support Overhead
and are included in the $334,505 of under claimed costs. These are discussed in other
findings in this report.

The Program Support Overhead accumulator code is comprised of entities whose staffs
are engaged in activities that support other OTDA organizations responsible for the
goals and directions of the programs that OTDA administers, such as the
Commissioner’s Office. The allocation methodology is based on staff counts for staff
involved in the policy and program directional activities of the OTDA. The allocation
rates to the Disability Determination program generally averaged between
5 and 6 percent during our audit period.

Allocation Rates

The allocation rates used to distribute the Program Support Overhead cost pools were
incorrectly calculated for some of the quarters of our audit period, resulting in both
under and over allocations to the DDP.

We found that OTDA miscalculated the allocation rates used to assign Program Support
Overhead costs to specific programs by not including certain DDP staff (accumulator
code DD1) from October 1999 through March 2000. This omission of staff from the
allocation formula resulted in an undercharging of allowable Program Support Overhead
costs to SSA.

We also discovered that certain staff counts for two accumulator codes were
erroneously excluded from the base for seven of the quarters of our audit period.
Specifically, the staff counts for Minor Federal Programs Transitional Support Services
and Policy (accumulator code C09) and Federal Non-Participating Transitional Support
Services and Policy (C99) were not included in the allocation base from July 2000
through March 2002. Prior and subsequent to this period, the allocation base properly
included the staff for these two accumulator codes.

For the April through June 2002 period, although the allocation rate was correctly
calculated, a different rate was used, which resulted in an over claim to the DDP.


NYS Disability Determination Program Indirect Costs (A-02-04-24017)                       5
For the affected periods, the rates used to allocate costs to the DDP and the rates that
should have been used are detailed below:

       Period         Allocation     Revised          Period          Allocation    Revised
                      Rate Used     Allocation                        Rate Used    Allocation
                                       Rate                                           Rate
 Oct 99 to Dec 99       0.00%         5.78%      Apr 01 to June 01      5.53%        5.04%
 Jan 00 to Mar 00       0.00%         5.88%      Jul 01 to Sept 01      5.56%        5.08%
 July 00 to Sept 00     5.29%         4.80%      Oct 01 to Dec 01       6.02%        5.53%
 Oct 00 to Dec 00       5.09%         4.64%      Jan 02 to Mar 02       5.96%        5.49%
 Jan 01 to Mar 01       5.12%         4.66%      Apr 02 to June 02      5.96%        5.49%

Training

Training costs specifically related to programs of a non-disability determination nature
have been included in the cost pool contrary to the methodology stated in the CAP.
The CAP addresses the two types of training that can be provided—program and
general—and the methods for charging training costs. Program training is to be directly
charged to the benefiting entity. General training, such as basic writing skills or
supervisory training, is to be charged to all OTDA programs through the Program
Support Overhead accumulator code.

Our review of training costs disclosed that some training programs that benefited
specific programs were included in the Program Support Overhead cost pools for the
July through September 2001 and January through March 2002 periods. Specifically,
we identified training contracts for welfare reform implementation, Temporary
Assistance to Needy Families, and domestic violence training that were not general in
nature and should have been directly charged to the benefiting program.

Transaction Classification

We identified transactions that were classified as Program Support Overhead costs that
should have been directly charged to Non-Disability Determination programs. As such,
the Program Support Overhead cost pools were overstated, which resulted in a greater
amount of costs being allocated to the DDP. For example, we identified expenses for
office furniture, consultants who helped to develop a welfare reform tracking system and
office space renovations for specific programs that should have been directly charged to
those programs.

A-87 COSTS

OTDA Claimed          For October 1999 through September 2002, we found that OTDA
Excessive A-87        claimed excessive A-87 costs, statewide costs for services that
Costs                 benefit all departments within the State. The classification of
                      expenses to inappropriate overhead accounts and the use of




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                             6
incorrect expenses lead to the claim of the excessive costs. The impact on the costs
claimed by OTDA is included in the amounts reported in the sections of this report for
Administrative and Program Support Overhead.

A-87 costs, also referred to as central service costs, are statewide costs for services
that benefit all departments within the State. These services are provided by
departments such as the Office of General Services, Office of the State Comptroller,
Department of Law, and Office for Technology (OFT). A state-wide cost allocation plan
distributes the costs to the benefiting departments. The A-87 costs distributed to the
OTDA are analyzed by cost accounting and categorized to either Administrative Support
Overhead or Program Support Overhead based on the nature of the cost of each
departmental component.

Overhead Categories

Some A-87 costs were not properly classified to the appropriate overhead categories.
The costs associated with the OFT and the Division of Budget were classified as
Administrative Support Overhead items, while they were more appropriately Program
Support Overhead items. This classification resulted in an inequitable distribution of
costs in relation to the benefits received.

The OTDA is allocated a portion of OFT’s A-87 costs based on actual billings from the
OFT. When processing vouchers from the OFT for expenses not related to A-87 costs,
OTDA allocates these costs to users based on either computer usage reports or an
inventory of technology related equipment. The DDP was charged, and therefore SSA
was charged, 51 to 57 percent of the Administrative Support Overhead costs during our
audit period, while its computer usage and technology equipment costs were less than
five percent. Therefore, the DDP was charged over 50 percent of the A-87 OFT costs,
while only receiving less than five percent of the benefits derived from those costs. The
DDP is charged approximately five percent of the Program Support Overhead costs,
which is more in line with the relative benefits received from OFT activities.

Similarly, the A-87 costs for the Division of Budget were also classified as an
Administrative Support Overhead item. Yet, OTDA classifies its own budgeting
activities as Program Support Overhead costs. Therefore, OTDA treated two similar
costs, A-87 budgeting costs and its own budgeting costs, inconsistently.

Two other A-87 departmental components that had previously been considered by
OTDA as Administrative Support Overhead were classified as Program Support
Overhead for the last six quarters of our audit period. The State Ethics Commission
and Government Office of Regulatory Reform were reclassified as Program Support
Overhead starting in April 2001. The classification of these costs as Program Support
Overhead for the entire audit period is more appropriate.




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                      7
The allocation rates used by OTDA and the revised rates, which considers the
reclassification of A-87 components from Administrative Support Overhead
(accumulator code 020) to Program Support Overhead (040), are detailed below.

  Period/   Allocation Revised     Period/   Allocation Revised     Period/   Allocation Revised
Accumulator Rate Used Allocation Accumulator Rate Used Allocation Accumulator Rate Used Allocation
  Codes                  Rate      Codes                  Rate      Codes                  Rate


10/99-12/99                             10/00-12/00                      10/01-12/01
                                                                     4
       020        42.46%     42.44%         020       48.94%   -10.91%       020       30.68%   5.51%
       040        57.54%     57.56%         040       51.06%   110.91%       040       69.32%   94.49%
    1/00-3/00                            1/01-3/01                        1/02-3/02
                                                                     4
       020        40.48%     42.44%         020       48.94%   -10.91%       020       30.68%   5.51%
       040        59.52%     57.56%         040       51.06%   110.91%       040       69.32%   94.49%
    4/00-6/00                            4/01-6/01                        4/02-6/02
       020        48.94%    -10.91%4        020       30.68%    5.51%        020       30.68%   17.09%
       040        51.06%    110.91%         040       69.32%   94.49%        040       69.32%   82.91%
    7/00-9/00                            7/01-9/01                        7/02-9/02
                                    4
       020        48.94%    -10.91%         020       30.68%    5.51%        020       60.89%   17.09%
       040        51.06%    110.91%         040       69.32%   94.49%        040       39.11%   82.91%

Cost Pool

We found that A-87 costs claimed for the October through December 1999 period were
incorrect. The amount claimed did not agree to the schedule supporting the costs
distributed to OTDA by the statewide cost allocation plan.

UPSTATE COMPUTER OPERATIONS

    We Identified $565,976 For October 1999 through September 2002, we found that
    of Unallowable and     OTDA claimed $565,976 of unallowable and improperly
    Improperly Allocated   allocated costs for Upstate Computer Operations. The costs
    Costs for Upstate      were due to incorrect allocation rates and transaction
    Computer Operations    adjustments that were incorrectly processed. These issues
                           also affect Administrative and Program Support Overhead
and have been quantified in the amounts claimed in those accumulator codes.

Allocation Rates

The allocation rates used to distribute Upstate Computer Operations cost pool were
incorrectly calculated. The allocation method, based on computer usage reports, did
not include all users in the allocation base, resulting in higher allocation rates to the
DDP.


4
    Negative percentage is due to a credit balance.


NYS Disability Determination Program Indirect Costs (A-02-04-24017)                                  8
The computer usage reports are compiled by software, which reads, interprets and
identifies the program user and related costs of computer transactions and support.
The usage reports used to determine the Upstate Computer Operations allocation rates
omitted usage data for the New York City Welfare Management System (accumulator
code 662). The exclusion of this data resulted in higher allocation rates to other users.

Additionally, OTDA was only able to provide usage reports for 8 of the 12 quarters in
our audit period. We estimated the rate for the missing four quarters by averaging the
percentage difference in allocation rates for the eight quarters we had documentation
for compared to those calculated with the inclusion of accumulator code 662. The
average difference of 14.01 percent was applied to the rates used for the October 1999
through June 2000 period.

The allocation rates calculated for each user result in three allocations that affect the
DDP – Administrative Support Overhead (accumulator code 020), Program Support
Overhead (code 040), and DDP (code 035). The costs within the overhead accounts
(codes 020 and 040) are ultimately reallocated to DDP. The allocation rates used by
OTDA, and the revised rates which include the usage data for the New York City
Welfare Management System (code 662), are displayed as follows:

  Period/   Allocation Revised     Period/   Allocation Revised     Period/   Allocation Revised
Accumulator Rate Used Allocation Accumulator Rate Used Allocation Accumulator Rate Used Allocation
  Codes                  Rate      Codes                  Rate      Codes                  Rate

10/99-12/99                      10/00-12/00                      10/01-12/01
    020       0.76%     0.65%        020       0.57%      0.49%       020       1.10%     0.94%
    040       0.66%     0.57%        040       0.17%      0.14%       040       0.34%     0.29%
    035       1.47%     1.26%        035       3.42%      2.95%       035       2.25%     1.91%
 1/00-3/00                        1/01-3/01                        1/02-3/02
    020       0.55%     0.47%        020       0.58%      0.49%       020       1.20%     1.05%
    040       0.82%     0.71%        040       0.38%      0.32%       040       0.47%     0.41%
    035       2.62%     2.25%        035       2.66%      2.26%       035       6.43%     5.65%
 4/00-6/00                        4/01-6/01                        4/02-6/02
    020       0.47%     0.40%        020       0.90%      0.77%       020       1.53%     1.32%
    040       0.20%     0.17%        040       0.26%      0.23%       040       0.52%     0.45%
    035       2.79%     2.40%        035       2.13%      1.82%       035       4.45%     3.84%
 7/00-9/00                        7/01-9/01                        7/02-9/02
    020       0.47%     0.40%        020       1.42%      1.21%       020       1.20%     1.05%
    040       0.20%     0.17%        040       0.22%      0.18%       040       0.25%     0.22%
    035       2.79%     2.40%        035       2.67%      2.27%       035       2.94%     2.56%

Transaction Adjustments

Adjustments made to some cost pool transactions were processed incorrectly, resulting
in overcharges to the DDP. OTDA attempted to credit the Upstate Computer
Operations cost pool for an expense that related directly to a welfare tracking system,
which should have been charged to that specific program, but instead was charged to
the Upstate Computer Operations cost pool a second time.


NYS Disability Determination Program Indirect Costs (A-02-04-24017)                                  9
Another adjustment intended to remove a portion of a mainframe computer expense
charged for disaster recovery that should have been depreciated. Instead of crediting
the undepreciated portion of the expense, the adjustment resulted in a second charge to
the cost pool.

INFORMATION TECHNOLOGY MANAGEMENT OVERHEAD

We Identified $78,812 of  For October 1999 through September 2002, we found that
Improperly Allocated      OTDA claimed $78,812 of excessive costs for Information
Costs for ITM Overhead    Technology Management (ITM) Overhead due to the
                          application of incorrect allocation rates. This also affects
Administrative and Program Support Overhead and has been quantified in the amounts
claimed in those accumulator codes.

The allocation rates used to distribute the ITM cost pools were incorrectly calculated.
The allocation method, based on computer usage reports, did not include all users in
the allocation base resulting in higher allocation rates to the DDP. The allocation rates
for ITM Overhead are based on the combined results of computer usage costs
associated with Upstate Computer Operations (accumulator code U60) and Downstate
Computer Operations (code N60). As mentioned previously, the allocation base for
Upstate Computer Operations did not include the usage charges applicable to
accumulator code 662 resulting in higher allocation rates to other users. Similarly, the
allocation rates for ITM Overhead omitted the usage charges for accumulator code 662.
The illustration below displays the allocation rates used by OTDA and the revised rates
which include the usage data for the New York City Welfare Management System (code
662).

  Period/   Allocation Revised     Period/   Allocation Revised     Period/   Allocation Revised
Accumulator Rate Used Allocation Accumulator Rate Used Allocation Accumulator Rate Used Allocation
  Codes                  Rate      Codes                  Rate      Codes                  Rate

10/99-12/99                     10/00-12/00                      10/01-12/01
    020       0.38%    0.33%        020       0.29%     0.25%        020        0.55%     0.47%
    040       0.33%    0.28%        040       0.08%     0.07%        040        0.17%     0.15%
    035       0.73%    0.63%        035       1.71%     1.47%        035        1.12%     0.96%
 1/00-3/00                       1/01-3/01                        1/02-3/02
    020       0.27%    0.23%        020       0.29%     0.25%        020        0.60%     0.53%
    040       0.41%    0.35%        040       0.19%     0.16%        040        0.23%     0.21%
    035       1.31%    1.13%        035       1.33%     1.13%        035        3.21%     2.83%
 4/00-6/00                       4/01-6/01                        4/02-6/02
    020       0.24%    0.21%        020       0.45%     0.38%        020        0.76%     0.66%
    040       0.10%    0.09%        040       0.13%     0.11%        040        0.26%     0.22%
    035       1.39%    1.20%        035       1.06%     0.91%        035        2.22%     1.92%
 7/00-9/00                       7/01-9/01                        7/02-9/02
    020       0.24%    0.21%        020       0.71%     0.60%        020        0.60%     0.52%
    040       0.10%    0.09%        040       0.11%     0.09%        040        0.12%     0.11%
    035       1.39%    1.20%        035       1.34%     1.13%        035        1.47%     1.28%



NYS Disability Determination Program Indirect Costs (A-02-04-24017)                               10
TEN EYCK RENT

Ten Eyck Rent             For October 1999 through March 2000, we found that rent costs
Costs Were                claimed by OTDA were incorrect due to the use of incorrect
Improperly Allocated      square footage statistics. The impact of the improperly
                          allocated costs is quantified in the other findings referred to in
this report as rent costs are allocated to other accumulator codes.

Ten Eyck rent represents rent costs for Ten Eyck Plaza, a facility in Albany, New York
housing OTDA support operations. The allocation methodology is based on an annual
review of square footage occupied. Rent costs are allocated to other accumulator
codes before reallocation to programs. Our review disclosed that the allocation
percentages used for the October 1999 through March 2000 period were not supported
by the square footage summary.

DISABILITY DETERMINATION OVERHEAD

OTDA Did Not Claim             Our review disclosed that OTDA did not claim $643,323 of
$643,323 for Disability        allowable costs for Disability Determination Overhead
Determination Overhead         during October 1999 through September 2002. This is a
that was Allowable             net total of under claimed personnel costs and some
                               overcharges. Some of the overcharges were personnel
                               costs charged in error. Other overcharges were
associated with additional findings referred to in this report that affected Administrative
Support Overhead, which allocates a portion to Disability Determination Overhead.

Personnel costs for seven employees were not claimed due to incorrect time card
coding. Consequently, OTDA did not claim $890,756 of allowable personnel costs.

We also found that personnel costs for two employees charged to Disability
Determination Overhead were incorrectly included in the cost pools, based on their work
functions at that time. The employees should have been charged to other accumulator
codes. As a result, overcharges of $130,555 were made during our audit period.

During our review of Disability Determination Overhead, we found duplicate charges for
personnel costs. Although the charges were correctly claimed as Disability
Determination Overhead, the overcharge affected OTDA’s claim for direct administrative
costs for the DDP. This is described in greater detail in the other matters section of this
report.

FORM SSA-4513

OTDA Claimed $212,381 A reconciliation of costs from the COCAC to the Form SSA-
More Than the Costs It 4513 disclosed that reported total obligations on the Form
Documented for FY 2002



NYS Disability Determination Program Indirect Costs (A-02-04-24017)                      11
SSA-4513 for FY 20025 were in excess of amounts reported in COCAC by $212,381.
SSA procedures require that valid unliquidated obligations should be supported by
documents or records describing the nature of obligations and supporting the amounts
recorded. State agencies are required to provide narrative reports on the status of
unliquidated obligations with the quarterly Form SSA-4513.6 Consequently, the
$212,381 is an overstatement of reported obligations. Our reconciliation of COCAC
data to total obligations reported on the Form SSA-4513 is as follows:

         FY                 COCAC             Form SSA-4513            Difference
        2000               $9,150,137           $9,150,137                   $0
        2001              11,257,527            11,257,530                     3
        2002              13,262,727            13,475,108              212,381
        Total            $33,670,391           $33,882,775             $212,384

OTHER MATTERS

Our review of personnel costs charged to Disability Determination Overhead disclosed
some of the same charges were also directly charged to the DDP. Personnel costs for
eight employees were incorrectly charged twice, resulting in overcharges of $1,050,604
to claimed direct costs.

This was caused by the use of two different sources for charging indirect salary costs
verses direct salary costs. Time cards are used to charge indirect costs and the payroll
system is used for direct costs. As a result, personnel costs for the eight employees
were erroneously charged to both direct and indirect costs. The duplicate direct
charges by fiscal year are as follows:

                               FY            Personnel Costs
                              2000               $303,556
                              2001                359,497
                              2002                387,551
                              Total            $1,050,604




5
    Dated January 16, 2004.
6
    SSA, POMS, DI 39506.203.


NYS Disability Determination Program Indirect Costs (A-02-04-24017)                    12
                                                   Conclusions and
                                                  Recommendations
Our review of indirect administrative costs disclosed that OTDA claimed $3,977,860 of
unallowable and improperly allocated indirect costs for the October 1999 through
September 2002 period. These costs included improperly classified expenses and
credits, overcharges for incorrect adjustments and costs based on incorrect
computations of allocation rates. We also found $1,050,604 of duplicate personnel
costs that resulted in overcharges to claimed direct administrative costs.

RECOMMENDATIONS
We recommend that SSA instruct OTDA to:

1. Refund $3,977,860 of unallowable costs claimed for October 1999 through
   September 2002;

2. Follow existing procedures by accounting for expenditures and revenues of the
   Quick Copy Center in accumulator code 000;

3. Establish procedures to ensure that transactions are coded to the proper
   accumulator code;

4. Ensure that only training costs of a general nature are charged to Program Support
   Overhead;

5. Classify the components of A-87 costs to appropriate overhead categories to allow
   for an equitable distribution of costs;

6. Provide documentation for the unsupported obligations claimed on the Form SSA-
   4513, and deobligate the portion of the $212,381 of FY 2002 total obligations that
   are not supported by valid documentation;

7. Refund $1,050,604 of duplicate personnel costs claimed as direct costs for Federal
   FYs 2000 through 2002; and

8. Correct the system for charging personnel costs so that future claimed costs assures
   that the accumulator coding on the payroll system is in agreement with time card
   coding for every employee and accurately represents the work being performed.




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                     13
We further recommend that SSA instruct OCFS to:

9. Ensure the quarterly COCACs include the correct cost pools and allocation statistics
   appropriate for the accumulator codes and periods claimed.

SSA COMMENTS
SSA agreed with all of our recommendations, but stated in response to our sixth
recommendation that it would be difficult to determine whether documentation provided
by OTDA for unsupported obligations on Form SSA - 4513 was new or had previously
been submitted. Consequently, SSA suggested that the entire $212,381 of
unsupported obligations be deobligated. See Appendix C for the full text of SSA’s
comments.

OTDA COMMENTS

OTDA generally agreed with our findings, but disagreed with the amounts of
overcharges we calculated. Specifically, the OTDA stated that the $3,977,860
overcharge discussed in our first recommendation may change after amended COCAC
claims are generated. In response to our sixth recommendation, OTDA stated that
$212,381 of unsupported obligations has been reduced to $44,689 for FY 2002. OTDA
also did not agree with the overcharge of $1,050,604 related to duplicate personnel
costs claimed as direct costs (recommendation 7). It stated that the overcharge and
corresponding refund should be reduced to $290,404 to take into account miscoded
payroll charges that were inadvertently omitted from its original claims. See Appendix D
for the full text of OTDA’s comments.

OIG RESPONSE
We believe that the overcharge of $3,977,860 should be refunded to SSA. The
calculations used to arrive at that figure paralleled the COCAC process. Since the
COCAC process involves detailed calculations of indirect costs based on the approved
Cost Allocation Plan, we believe the overcharge figure to be accurate. We concur with
OTDA in that it should deobligate $44,689 of unsupported obligations for FY 2002,
instead of the recommended $212,381, as long as it provides SSA with documentation
to support the difference.

We do not believe that the $1,050,604 of duplicate personnel costs claimed as direct
costs should be reduced to $290,404. The miscoded payroll charges in question were
related to indirect costs and were taken into consideration when we calculated indirect
cost overcharges. The $1,050,604 overcharge we identified was claimed as direct
costs. Accordingly, this figure should not be reduced and the $1,050,604 of duplicate
personnel costs should be refunded to SSA.




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                   14
                                           Appendices




NYS Disability Determination Program Indirect Costs (A-02-04-24017)
                                                                      Appendix A

Acronyms
 Act                Social Security Act
 CAP                Cost Allocation Plan
 C.F.R.             Code of Federal Regulations

 COCAC              Central Office Cost Allocation Claim
 DDP                Disability Determination Program
 DDS                Disability Determination Services
 DI                 Disability Insurance
 Form SSA-4513      State Agency Report of Obligations for SSA Disability Programs
 FY                 Fiscal Year
 ITM                Information Technology Management
 NYS                New York State
 OCFS               Office of Children and Family Services
 OFT                Office for Technology
 OIG                Office of the Inspector General
 OMB                Office of Management and Budget
 OTDA               Office of Temporary and Disability Assistance
 POMS               Program Operations Manual System
 QCC                Quick Copy Center
 SSA                Social Security Administration
 SSI                Supplemental Security Income




NYS Disability Determination Program Indirect Costs (A-02-04-24017)
                                                                      Appendix B

Scope and Methodology
We reviewed the indirect administrative costs claimed by the Office of Temporary and
Disability Assistance (OTDA) on its Form SSA-4513 for Federal Fiscal Years (FY) 2000
through 2002.

To complete our objective, we:

   •   Reviewed the Office of Management and Budget (OMB) Circular A-87, Cost
       Principles for State, Local and Indian Tribal Governments, Social Security
       Administration’s (SSA) Program Operations Manual System, and the Department
       of Health and Human Services approved Cost Allocation Plan.

   •   Interviewed personnel at the New York State (NYS) OTDA, NYS Office of
       Children and Family Services, SSA New York Regional Office, and Department
       of Health and Human Services Division of Cost Allocation.

   •   Obtained an understanding of the accounting data and procedures used to
       prepare the quarterly Central Office Cost Allocation Claims (COCACs).

   •   Reconciled the accounting records to the costs claimed by OTDA, on its Form
       SSA-4513, for FY’s 2000 through 2002.

   •   Performed substantive testing of transactions and allocation rates supported by
       the quarterly COCACs for FY’s 2000 through 2002.

   •   Reviewed the New York State Single Audit Reports for the period April 1,1998
       through March 31, 2002.

   •   We limited our review of internal controls to a reliance on a review of the cost
       allocation system performed by independent auditors who reported that controls
       were functioning properly. Based on this and our own work, we determined the
       data produced by the cost accounting system to be sufficiently reliable for our
       intended use.




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                   B-1
We presented our findings by accumulator code because that is the claiming
mechanism in COCAC. Due to the way the cost accounting system operates, we were
unable to place a specific dollar value on the individual findings, as well as the various
findings grouped by individual accumulator codes. The accumulator codes were put
through a step down allocation process, which resulted in reallocations to other
accumulator codes and finally to the Disability Determinations Program account. Our
determination of questioned costs represented the final allocation to the Disability
Determination Program after adjustments to the costs pool and allocation percentages
contained in the individual accumulator codes.

We performed our audit work at the OTDA in Albany, New York, the Office of Children
and Family Services (OCFS) in Rensselaer, New York and the New York Regional
Office. The entities audited were the OTDA and the Office of Disability Determinations
within the Office of the Deputy Commissioner for Disability and Income Security
Programs. We conducted our audit from October 2003 through May 2004. The audit
was conducted in accordance with generally accepted government auditing standards.




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                     B-2
                                                                                                                                             Appendix C

   Summary of Monetary Results
Office of Temporary
and Disability                                                                                                                                                  Total
Assistance Costs:           10/1/1999 - 9/30/2000 (FY 2000)          10/1/2000 - 9/30/2001 (FY 2001)               10/1/2001 - 9/30/2002 (FY 2002)           Adjustments
Allocated Costs:         Claimed       Per OIG      Difference     Claimed       Per OIG      Difference        Claimed        Per OIG      Difference
Administrative
Support Overhead       $4,458,914    $3,446,512   $(1,012,402)     $6,469,868   $4,870,028   $(1,599,840)       $7,214,451   $5,512,450    $(1,702,001)      $(4,314,243)
Program Support
Overhead                  492,643       878,871        386,228      1,056,408    1,042,097       (14,311)        1,183,884    1,146,472        (37,412)           334,505
Telecommunications        618,197       621,848          3,651        491,352      491,352              -          460,457      460,457               -             3,651
Upstate Computer
Operations                737,536       631,114      (106,422)       449,837      168,396      (281,441)         1,343,013    1,164,900      (178,113)          (565,976)
Information
Technology
Management
Overhead                  211,154       184,674        (26,480)      175,189      148,953        (26,236)         182,613       156,517        (26,096)          (78,812)
Disability
Determination
Overhead                 2,486,414    2,669,618        183,204      2,447,968    2,677,646       229,678         2,644,549    2,874,990        230,441            643,323
Human Service
Enterprise Network              -             -               -             -            -                 -         2,305         2,305                 -              -
Training                      611           303           (308)             -            -                 -             -             -                 -          (308)
Amended Claim                   -             -               -         5,254        5,254                 -             -             -                 -              -
Office of Children
and Family Services                                                                                                                                              Total
Costs:                     10/1/1999 - 9/30/2000 (FY 2000)            10/1/2000 - 9/30/2001 (FY 2001)               10/1/2001 - 9/30/2002 (FY 2002)          Adjustments
All Allocated Costs       144,671        144,671              -       161,650       161,650           -            231,456        231,456           -                    -
Annual Total:1         $9,150,140 $8,577,611       $(572,529)     $11,257,526 $9,565,376 $(1,692,150)          $13,262,728 $11,549,547 $(1,713,181)          $(3,977,860)




   1
       Claimed amounts are different from Forms SSA-4513 due to rounding.



   NYS Disability Determination Program Indirect Costs (A-02-04-24017)
                                                                      Appendix D

Agency Comments




NYS Disability Determination Program Indirect Costs (A-02-04-24017)
                                 SOCIAL SECURITY
MEMORANDUM                                                                 Refer To: S2D2G5

Date:        August 16, 2004

To:          Steven L. Schaeffer
             Assistant Inspector General
             for Audit

From:        Regional Commissioner
             New York

Subject:     New York State Disability Determination Program Indirect Cost Review (A-026-04-
             24017) - (Your Memorandum Dated July 23, 2004)


Thank you for the opportunity to present our views relative to the validity of the facts and
reasonableness of the recommendations presented in the draft report of your audit.

The 9 recommendations for SSA included in your draft audit of this review are:

      1. SSA should instruct the New York State (NYS) Office of Temporary and Disability
          Assistance (OTDA) to refund $3,977,860 of unallowable costs claimed for October 1999
          through September 2002.
       2. SSA should instruct the NYS OTDA to follow existing procedures by accounting for
          expenditures and revenues of the Quick Copy Center in accumulator code 000.
       3. SSA should instruct the NYS OTDA to establish procedures to ensure that transactions
          are coded to proper accumulator code.
       4. SSA should instruct the NYS OTDA to ensure that only training costs of a general nature
          are charged to Program Support Overhead.
       5. SSA should instruct the NYS OTDA to classify the components of A-87 costs to
          appropriate overhead categories to allow for an equitable distribution of costs.
       6. SSA should instruct the NYS OTDA to provide documentation for the unsupported
          obligations claimed on the Form SSA-4513, and deobligate the portion of the $212,381
          of FY 2002 total obligations that are not supported by valid documentation.
       7. SSA should instruct the NYS OTDA to refund $1,050,604 of duplicate personnel costs
          claimed as direct costs for Federal FYs 2000 through 2002.




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                            D-1
    8. SSA should instruct the NYS OTDA to correct the system for charging personnel costs so
       that future claimed costs assures that the accumulator coding on the payroll system is in
       agreement with time card coding for every employee and accurately represents the work
       being performed.
    9. SSA should instruct the NYS Office of Children and Family Services (OCFS) to ensure
       the quarterly Central Office Cost Allocation Claims (COCACs) include the correct cost
       pools and allocation statistics appropriate for the accumulator codes and periods claimed.

Recommendations 1 through 5 and 7 through 9 appear to be reasonable and justifiable.
Recommendation number 6 requires that New York (NY) Regional Office (RO) staff request
documentation for the unsupported obligations claimed on the Form SSA-4513. To properly
review any documentation that the NYS OTDA provides to the NY RO, we also would have to
review the documentation that your auditors reviewed. Without seeing all of the documentation,
we would not be able to discern whether or not the additional documentation is new or had
previously been submitted. We agree that we should instruct the NYS OTDA to deobligate
unsupported obligations in the amount of $212,381 of FY 2002 total obligations, without
requesting that they submit further documentation for our review.

If members of your staff have any further questions on this matter they should be directed to
Gene Purk, (212) 264-7283 in the Center for Disability Programs.




                                                 Beatrice M. Disman




NYS Disability Determination Program Indirect Costs (A-02-04-24017)                             D-2
                                                                      Appendix E

Office of Temporary and Disability Assistance
Comments




NYS Disability Determination Program Indirect Costs (A-02-04-24017)
NYS Disability Determination Program Indirect Costs (A-02-04-24017)   E-1
NYS Disability Determination Program Indirect Costs (A-02-04-24017)   E-2
NYS Disability Determination Program Indirect Costs (A-02-04-24017)   E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Tim Nee, Director, New York Office of Audit, (212) 264-5295

Acknowledgments
In addition to those named above:

   Robert T. Blake, Senior Auditor

   Christine Chen, Auditor

   Abraham Pierre, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-02-04-24017.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
